OIG Audit Report 00-03
The Drug Enforcement Administration's
National Drug Pointer Index System
Report No. 00-03November 1999Office of the Inspector General
EXECUTIVE SUMMARY
The National Drug Pointer Index System (NDPIX) is a computerized pointer system designed to provide information about on-going drug investigations to participating federal, state, and local law enforcement agencies nationwide.  NDPIX is operated and maintained by the Drug Enforcement Administration (DEA) using information obtained from participating agencies.  The system is fully operational, allowing participating law enforcement agencies access to the system through the use of standard law enforcement communications equipment.  The DEA projects total costs of about $2.5 million from Fiscal Year (FY) 1994 to FY 2000 for implementing and operating the system.
NDPIX was developed to: (1) promote information sharing; (2) facilitate drug-related investigations; (3) prevent duplicate investigations; (4) increase coordination among federal, state, and local law enforcement agencies; and (5) enhance the personal safety of law enforcement officers.  Participating agencies enter the name of a suspect via the National Law Enforcement Telecommunications System computer terminal. NDPIX then identifies whether the suspect is under active investigation by any other participating agency and provides point of contact information to the entry-maker as well as notifying the original entry-maker of the match.
We found that NDPIX was adequately planned and developed, does not duplicate existing systems, and can be a useful tool for improving interagency communication.  However, the DEA can improve management controls over NDPIX by enhancing its measurement of NDPIX performance.  In its FY 1999 Performance Measurement Plan, the DEA intended to count only the number of positive "hits" resulting from data entries by participating agencies.  In addition, the DEA should consider including performance measures related to NDPIX program goals, such as determining:  (1) the number of cooperative investigations resulting from positive "hits," (2) the number of arrests and convictions resulting from cooperative investigations, (3) the value of seizures resulting from such investigations, and (4) cost and time savings resulting by avoiding duplicative investigations.
The results of our audit work are contained in the Findings and Recommendation sections of the report.  Our audit objectives, scope, and methodology are contained in Appendix I.